        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Weatherization Assistance Program
Funded under the American
Recovery and Reinvestment Act for
the State of New York




OAS-RA-12-07                               April 2012
                                 Department of Energy
                                    Washington, DC 20585
                                          April 6, 2012



MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
               AND RENEWABLE ENERGY

FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General
SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Weatherization Assistance Program Funded under the American
                         Recovery and Reinvestment Act for the State of New York"
BACKGROUND
The Department of Energy's Weatherization Assistance Program (Weatherization Program)
received $5 billion under the American Recovery and Reinvestment Act of 2009 to improve the
energy efficiency of residences owned or occupied by low-income persons. The Department
subsequently awarded the State of New York (New York) a Weatherization Program grant of
$394.6 million.
New York's Weatherization Program is administered by the Division of Housing and
Community Renewal (DHCR) through 74 local entities. New York's goal is to weatherize
approximately 45,000 units with Recovery Act funding, providing services to qualified elderly
households, persons with disabilities and families with children, on a priority basis. As of
December 31, 2011, New York officially reported spending $340.8 million to complete the
weatherization of approximately 52,000 units.
Given the significant amount of funding involved and the demands associated with weatherizing
thousands of homes, we initiated this audit to determine if DHCR and four of its local entities −
Action for a Better Community, Inc. (ABC); Association for Energy Affordability, Inc. (AEA);
People's Equal Action and Community Effort, Inc. (PEACE); and, Saratoga County Economic
Opportunity Council, Inc. (SARA) − had adequate safeguards in place to ensure the
Weatherization Program was managed efficiently, effectively and in compliance with Federal
and State laws and regulations. This report focuses on conditions common to the local entities
we reviewed. We have issued separate reports on the local entities for conditions that we
consider to be specific to that entity. See Attachment 2.
CONCLUSIONS AND OBSERVATIONS
DHCR had not always managed its Weatherization Program efficiently, effectively and in
compliance with laws and regulations. Specifically, we found DHCR had not ensured that:
          Local entities complied with Federal cash management requirements governing
          requests for reimbursement, deposit of Federal funds in interest-bearing accounts and
          return of interest earned on advances of Federal funds to the Department. In fact, local
          entities retained cash well in excess of Weatherization Program needs. Rather than
          using funds advanced for ongoing needs as required, local agencies inappropriately
          retained approximately $49 million of the $54 million (90 percent) received in
          advances. Further, only 10 of New York's 74 agencies had deposited funds in interest-
          bearing accounts, as required; and,

          Information was maintained to track and monitor the quality of weatherization
          services, and where appropriate, take corrective action on systemwide deficiencies. In
          the absence of a system to identify underperforming contractors or weatherization
          measures that were frequently deficient, New York's ability to take appropriate
          corrective action to improve services was limited.

                                 Management of Federal Funds

New York had not ensured local entity compliance with Federal and State cash management
requirements. Specifically, we found local entities had not: managed advanced funds in
accordance with Federal regulations; deposited Federal funds in interest-bearing accounts; and,
remitted interest earnings, when accrued, quarterly to the U.S. Treasury through the Department.

Reimbursement in Excess of Weatherization Program Needs

Local entities retained cash well in excess of Weatherization Program needs. New York, with
the Department's approval, advanced local agencies over $54 million, or anywhere from 15 to 25
percent of the grant award, to cover start-up costs and manage working capital needs. Rather
than using the funds to cover costs, however, our analysis indicated that 65 of 74 local entities
retained approximately $49 million of the $54 million initially advanced and requested additional
funding in subsequent months for actual costs incurred.

According to Federal regulation 10 CFR 600.221, a grantee must use advances "to cover its
estimated disbursement needs for an initial period generally geared to the grantee's disbursing
cycle. Thereafter, the awarding agency shall reimburse the grantee for its actual cash
disbursements." The goal of Federal cash management regulations is to minimize the amount of
time elapsed between when costs are incurred by State and local entities and when costs are
reimbursed by the Federal government. New York officials informed us that their incurred cost
reimbursement process was intended to ensure local entities maintained cash advances
throughout the budget period to meet anticipated operating needs, a practice inconsistent with
Federal regulations.

Lack of Interest-Bearing Accounts

Three of the four local entities we reviewed (ABC, AEA and SARA) had not deposited initial
Recovery Act advances totaling $6.7 million in interest-bearing accounts, as required by Federal
regulation 10 CFR 600.122. New York officials acknowledged that the guidance they provided

                                                2
to local entities was not clear. The guidance sent to the local entities, which was silent on the
issue of depositing funds in interest-bearing accounts, stated only that interest, if earned, should
be remitted to the Federal government. Further, although New York monitors had obtained
information on local entity weatherization cash balances, they had not used the information to
ensure compliance with the Code of Federal Regulations.

As a result of our audit, Department officials requested New York to review the practices of all
local entities to determine if Weatherization Program funds had been managed in accordance
with applicable regulations. New York found that 64 of its 74 local entities, 86 percent, had not
deposited advances in interest-bearing accounts.

Returning Interest Earnings to the U.S. Treasury

While Federal and State guidance both require interest earned on advanced funds to be remitted
at least quarterly to the U.S. Treasury through the Department, New York's contracts with local
entities erroneously allowed entities to retain interest and use it at the discretion of the entities.
One of the four local entities we reviewed, PEACE, had deposited approximately $1.8 million in
an interest-bearing account, but had not remitted about $4,000 in interest earned until we brought
the error to the attention of local officials. Further, during the cash management review noted
above, New York identified about $17,000 in interest earned related to the 10 entities that had
deposited advances in interest-bearing accounts. These funds should have been returned to the
U.S. Treasury through the Department. New York officials have been proactive in collecting the
outstanding interest earned; and to date, approximately $13,000 has been returned to the
Department. We conservatively estimate that had all agencies properly deposited funds in
interest-bearing accounts, approximately $118,000 in earned interest would have been returned
to the Federal government.

                                Quality of Weatherization Services

We were unable to determine the overall quality of New York's weatherization services because
neither the State nor its local entities had systematically maintained information on issues
identified as failures during final inspections and re-inspections. Such information would
provide data on any underperforming contractors and/or problematic weatherization measures,
thereby enabling New York to determine systemwide issues, develop timely corrective action
measures and tailor its training initiatives.

We acknowledge that New York monitored approximately 16 percent of weatherized units;
however, the lack of a formalized, Weatherization Program-wide system to track and analyze the
quality of weatherization services is concerning. For instance, at one local entity, ABC, five of
the nine single-family units we visited with a State inspector failed re-inspection. The units had
all been reported to the Department as previous completions. The inspector identified four
instances of improper equipment and insulation installation, and one health and safety issue. For
example, in one home, the inspector, using an infrared camera, identified a number of empty
wall cavities that should have been insulated. In another home, the inspector noted a health and
safety issue involving the use of spray foam installed around a hot water vent pipe. The
inspector required the local entity to correct all workmanship issues and suggested that in the

                                                  3
future, the agency use infrared cameras to improve the quality of post-work inspections. As a
result of our audit, local entity officials reported that all of the identified deficiencies have been
corrected and infrared cameras have been obtained and issued to crew and inspection staff.

This condition occurred because New York regulations did not require collection or
consolidation of information from the State's inspection results. In our opinion, maintaining
consolidated information on inspection failures could improve the quality of the New York
Weatherization Program as a whole.

                                            Other Reports

As previously noted, we have issued, under separate covers, reports on ABC, PEACE and
SARA. Under the Recovery Act, we were responsible for auditing local entities of the New
York Weatherization Program. To help fulfill these responsibilities, we contracted with Otis and
Associates, PC (Otis), an independent certified public accounting firm. Otis' reports include:

          Examination Report on People's Equal Action and Community Effort, Inc. −
          Weatherization Assistance Program Funds Provided by the American Recovery and
          Reinvestment Act of 2009 (OAS-RA-11-20, September 2011);

          Examination Report on Action for a Better Community, Inc. − Weatherization
          Assistance Program Funds Provided by the American Recovery and Reinvestment Act
          of 2009 (OAS-RA-11-21, September 2011); and,

          Examination Report on Saratoga County Economic Opportunity Council, Inc. −
          Weatherization Assistance Program Funds Provided by the American Recovery and
          Reinvestment Act of 2009 (OAS-RA-12-05, January 2012).

We concur with the identified recommended improvements in procurement, eligibility, cash
management, accounting, segregation of duties and maintaining required documentation.
Although specific to the local entities, the issues and the recommended corrective actions require
further action by the State. Details of the conclusions are in its reports. See Attachment 2 for
hyperlinks to these and other related reports.

RECOMMENDATIONS

To address the deficiencies identified in our audit and to help ensure the success of the New
York Weatherization Program, we recommend that the Assistant Secretary for Energy Efficiency
and Renewable Energy ensure that New York's DHCR:

    1. Establish policies, procedures and contracts that comply with Federal cash management
       regulations. Specifically:

            a. Ensure all entities deposit initial and subsequent advances in interest-bearing
               accounts; and,


                                                   4
           b. Ensure interest earned is returned to the Department;

   2. Formalize a system to track and analyze the results of home weatherization inspections
      and re-inspections; and,

   3. Review recommendations for corrective action contained in attached local entity specific
      reports.

Further, we recommend that the Department's Contracting Officer for the Weatherization
Program work with New York to ensure that interest earned by local entities is returned to the
Department.

MANAGEMENT AND AUDITOR COMMENTS

Management provided responses that generally agreed with our recommendations. Management
comments proposed a number of corrective actions, including updating policy and guidance,
which we found to be responsive to our recommendations.

Comments provided by the Deputy Assistant Secretary for Energy Efficiency and Renewable
Energy concurred with our recommendations. Management's comments are included in their
entirety in Attachment 3.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff




                                                5
                                                                                    Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine if the State of New York had adequate safeguards in
place to ensure the Weatherization Assistance Program (Weatherization Program) was managed
efficiently, effectively and in compliance with Federal and State laws and regulations.

SCOPE

This report contains the results of an audit performed between December 2010 and March 2012, at
the National Energy Technology Laboratory (NETL) in Pittsburgh, Pennsylvania and the Division of
Housing and Community Renewal (DHCR) in Albany, New York. We also performed a review at
Association for Energy Affordability, Inc. in New York, New York. Additionally, an independent
public accounting firm, Otis and Associates, PC, under contract with the Office of Inspector General
(OIG), conducted Examination Level Attestation Engagements at three local entities − Action for a
Better Community, Inc. in Rochester, New York; People's Equal Action and Community Effort, Inc.
in Syracuse, New York; and, Saratoga County Economic Opportunity Council, Inc. in Saratoga
Springs, New York. We concentrated our efforts on DHCR's Weatherization Program as funded by
the American Recovery and Reinvestment Act of 2009 (Recovery Act).

METHODOLOGY

To accomplish the audit objective, we:

         Reviewed applicable laws, regulations and guidance pertaining to the Weatherization
         Program under the Recovery Act, as well as guidance applicable to the State of New
         York's Weatherization Program;

         Held discussions with DHCR, NETL, New York State OIG and Office of the New
         York State Comptroller officials to discuss current and ongoing efforts to implement
         the requirements of the Weatherization Program under the Recovery Act;

         Reviewed applicant and unit eligibility as well as general ledger information to analyze
         costs incurred and cash draw downs;

         Reviewed Weatherization Program building (multi-unit) and local entity files and
         reports;

         Physically observed ongoing and completed weatherization work; and,

         Reviewed purchases of weatherization materials and costs incurred for labor for
         reasonableness.




                                                6
                                                                    Attachment 1 (continued)


We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. The audit
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the objective. Accordingly, we considered the establishment of Recovery Act
performance measures, which included certain aspects of compliance with the Government
Performance and Results Act of 1993. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. Also, we utilized computer-processed data to identify Recovery Act
expenditures in accomplishing our audit objective. We performed tests of the data and
determined that it was sufficiently reliable to achieve the objective of our audit.

We held an exit conference with Department of Energy officials on March 9, 2012.




                                            7
                                                                                    Attachment 2


                                      PRIOR REPORTS

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Office of
Inspector General has initiated a series of audits designed to evaluate the Department of Energy's
Weatherization Assistance Program's (Weatherization Program) internal control structures at the
Federal, state and local levels. Although not found in every state, these audits have identified
issues in areas such as poor quality of weatherization services, inspections and re-inspections,
inadequate inventory controls and questioned costs resulting from the ineffective administration
of Weatherization Program grants. Our series of audit reports include the following:

          Examination Report on Saratoga County Economic Opportunity Council, Inc. −
          Weatherization Assistance Program Funds Provided by the American Recovery and
          Reinvestment Act of 2009 (OAS-RA-12-05, January 2012);

          Examination Report on Action for a Better Community, Inc .− Weatherization
          Assistance Program Funds Provided by the American Recovery and Reinvestment Act
          of 2009 (OAS-RA-11-21, September 2011);

          Examination Report on People's Equal Action and Community Effort, Inc.−
          Weatherization Assistance Program Funds Provided by the American Recovery and
          Reinvestment Act of 2009 (OAS-RA-11-20, September 2011);

          Examination Report on Cuyahoga County of Ohio Department of Development −
          Weatherization Assistance Program Funds Provided by the American Recovery and
          Reinvestment Act of 2009 (OAS-RA-11-19, September 2011);

          Examination Report on Community Action Partnership of the Greater Dayton Area −
          Weatherization Assistance Program Funds Provided by the American Recovery and
          Reinvestment Act of 2009 (OAS-RA-11-18, September 2011);

          Audit Report on The Department of Energy's Weatherization Assistance Program
          under the American Recovery and Reinvestment Act in the State of Tennessee (OAS-
          RA-11-17, September, 2011);

          Audit Report on The Department of Energy's Weatherization Assistance Program
          Funded under the American Recovery and Reinvestment Act for the Commonwealth of
          Virginia (OAS-RA-11-14, August, 2011);

          Audit Report on The Department of Energy's Weatherization Assistance Program
          Funded under the American Recovery and Reinvestment Act in the State of Indiana
          (OAS-RA-11-13, August 2011);




                                                8
                                                           Attachment 2 (continued)


Audit Report on The Department of Energy's Weatherization Assistance Program
under the American Recovery and Reinvestment Act in the State of Missouri (OAS-
RA-11-12, August, 2011);

Audit Report on The Department of Energy's Weatherization Assistance Program
under the American Recovery and Reinvestment Act in the State of West Virginia
(OAS-RA-11-09, June, 2011);

Audit Report on The Department of Energy's Weatherization Assistance Program
Funded under the American Recovery and Reinvestment Act for the State of Wisconsin
(OAS-RA-11-07, June, 2011);

Audit Report on The Department of Energy's Weatherization Assistance Program
under the American Recovery and Reinvestment Act for the Capital Area Community
Action Agency − Agreed-Upon Procedures (OAS-RA-11-04, February, 2011);

Audit Report on The Department of Energy's Weatherization Assistance Program
under the American Recovery and Reinvestment Act for the City of Phoenix − Agreed-
Upon Procedures (OAS-RA-11-03, November, 2010);

Audit Report on Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
Implement the American Recovery and Reinvestment Act Weatherization Assistance
Program (OAS-RA-11-02, November, 2010);

Audit Report on The State of Illinois Weatherization Assistance Program (OAS-RA-
11-01, October, 2010);

Audit Report on The Department of Energy's Use of the Weatherization Assistance
Program Formula for Allocating Funds under the American Recovery and
Reinvestment Act (OAS-RA-10-13, June 2010);

Preliminary Audit Report on Management Controls over the Commonwealth of
Virginia's Efforts to Implement the American Recovery and Reinvestment Act
Weatherization Assistance Program (OAS-RA-10-11, May, 2010);

Special Report on Progress in Implementing the Department of Energy's
Weatherization Assistance Program Under the American Recovery and Reinvestment
Act (OAS-RA-10-04, February, 2010); and,

Audit Report on Management Alert on the Department's Monitoring of the
Weatherization Assistance Program in the State of Illinois (OAS-RA-10-02,
December, 2009).




                                    9
                      Attachment 3
MANAGEMENT COMMENTS




        10
     Attachment 3 (continued)




11
     Attachment 3 (continued)




12
     Attachment 3 (continued)




13
                                                                 IG Report No. OAS-RA-12-07

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
